OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S SOCIAL
MARKETING AND BEHAVIOR
CHANGE INTERVENTIONS FOR
HIV/AIDS, REPRODUCTIVE AND
SEXUAL HEALTH AND CHILD
SURVIVAL IN CAMBODIA
PROJECT

AUDIT REPORT NO. 5-442-11-006-P
MARCH 31, 2011


MANILA, PHILIPPINES
Office of Inspector General


March 31, 2011

MEMORANDUM

TO:                  USAID/Cambodia Director, Flynn Fuller

FROM:                Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID’s Social Marketing and Behavior Change Interventions for
                     HIV/AIDS, Reproductive and Sexual Health and Child Survival in Cambodia
                     Project (Audit Report No. 5-442-11-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

This report contains nine recommendations to assist the mission in improving the efficiency and
effectiveness of its project. On the basis of information provided by the mission in its response
to the draft report, we determined that management decisions have been reached on
Recommendations 1, 3, 4, 6, 7, 8, and 9. Please provide the Audit Performance and
Compliance Division of USAID’s Office of the Chief Financial Officer with evidence of final action
to close these recommendations.

We determined that management decisions have not been reached on Recommendations 2
and 5. Management decisions can be reached when USAID/Cambodia provides us with a firm
plan of action for implementing these two recommendations. Please advise our office within 30
days of the actions planned or taken to implement these recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 5 


     Outreach Staff Did Not Represent Hormonal Birth Control Products
     Adequately or Correctly to Beneficiaries ..................................................................... 5

     Performance Measurements Did Not Reflect Project Impact...................................... 6

Evaluation of Management Comments....................................................................... 10

Appendix I –            Scope and Methodology .................................................................... 13

Appendix II –           Management Comments .................................................................... 15

Appendix III – Auditor Review of the Project’s Fiscal Year 2010
               Performance Indicators and Reported Results ............................... 22

Appendix IV – Performance Indicators With Definition Problems.......................... 28

Appendix V –            Performance Indicators Stating Multiple Objectives ...................... 29

Appendix VI – Performance Indicators Not Fairly Representing
              Project Performance .......................................................................... 30

Appendix VII – Timeliness of Reported Data for Key Impact-Related
               Performance Indicators ..................................................................... 31 





Abbreviations

The following abbreviations appear in this report:
ADS             Automated Directives System
IUD             intrauterine device
FY              fiscal year
HIV/AIDS        human immunodeficiency virus/ acquired immune deficiency syndrome
MSM             men who have sex with men
NGO             nongovernmental organization
ORS             oral rehydration solution
PSI             Population Services International
SMBCI           Social Marketing and Behavior Change Interventions for HIV/AIDS, Reproductive
                and Sexual Health and Child Survival in Cambodia
USG             U.S. Government
SUMMARY OF RESULTS

According to reports from Population Services International, Cambodia has made significant
gains in reducing HIV incidence and prevalence over the past decade. Because of targeted
interventions, some of which have been carried out through USAID-funded projects, reported
consistent condom use among brothel-based sex workers increased from 42 percent to 94
percent between 1997 and 2007. However, as the locus of the sex industry has shifted from
brothels to entertainment establishments,1 largely because of anti‐trafficking and sexual
exploitation legislation introduced in Cambodia in 2008, patterns of condom use have also
shifted.

Cambodia also faces challenges in meeting contraceptive needs and in reducing child morbidity
and mortality. While the use of modern contraceptive methods increased from 19 percent in
2000 to 42.6 percent in 2007 among currently married women, roughly a quarter of all
Cambodian women report an unmet need for birth control, with higher needs among the rural
poor. Roughly 35 percent of women who are not using contraceptives, but would like to, cite
concerns about the health risks associated with modern contraceptive methods as the major
reason preventing them from using contraception. Child morbidity and mortality are related in
part to limited access to safe drinking water and poor hygiene. Dehydration caused by diarrhea
accounts for approximately 25 percent of all child deaths in Cambodia; only 53 percent of rural
families have access to safe drinking water.

In response to these challenges, and to improve the health of poor and vulnerable Cambodians,
USAID initiated the Social Marketing and Behavior Change Interventions for HIV/AIDS,
Reproductive and Sexual Health and Child Survival in Cambodia (SMBCI) Project. The project
is being implemented through a $15.9 million cooperative agreement with Population Services
International, covering a 5-year period from February 5, 2008, through February 4, 2013. As of
September 30, 2010, cumulative obligations and disbursements under the project totaled $11.2
million and $8.4 million, respectively.

The project seeks to increase consistent and correct use of high‐quality health products and
services among priority, at‐risk populations—especially the poor and vulnerable—to combat
HIV/AIDS, improve reproductive health, and provide clean drinking water. The project’s
activities are to (1) increase access to condoms, birth control products, and oral rehydration
solution (ORS), (2) increase Cambodian national capacity to manage and sustain results over
the long term with reduced dependence on donors, and (3) improve knowledge, awareness, and
supportive attitudes to change behaviors among priority populations.

The objective of the audit was to determine whether the project was achieving its main goal of
improving the health of poor and vulnerable Cambodians.

The audit determined that, although the project has successfully increased access to health
products and provided training to individuals and organizations to increase Cambodian national
capacity, the project has demonstrated limited impact in improving the health of poor and
vulnerable Cambodians. This is because only one of eight at-risk populations targeted by the
project has demonstrated a positive change in behaviors through improved knowledge,
awareness, and supportive attitudes. As for the other seven targeted populations, two made

1
    Entertainment establishments include beer gardens, karaoke bars, and massage parlors.


                                                                                            1
slight positive changes, while another two displayed zero or slightly negative behavior changes;
however, changes in behavior for these four populations were too small to be statistically
significant. The results of targeted interventions for the remaining three at-risk populations were
not reported at all.

As noted above, the project is making progress in increasing access to health products, such as
condoms, birth control products, ORS, and water treatment tablets. Since the start of the
project, there has been a dramatic increase in the availability of condoms in and around
locations where men are likely to seek sex from entertainment workers such as noted in beer
gardens, where condom availability has increased from 25 percent in 2007 to 70 percent in
2010. The project has also increased the coverage2 of oral contraceptive pills from 50 percent
of targeted villages to 65 percent. Further, the project has distributed large quantities of ORS
and water treatment tablets.

Similarly, the project appears to be successfully training numerous individuals and organizations
to assist in HIV-related institutional capacity building and social marketing of health products
and services. Theoretically, this training will help Cambodia manage and sustain results over
the long term with reduced dependence on donors.

Despite these successes, however, the project has demonstrated limited progress in changing
the behaviors of targeted populations to increase consistent and correct use of high‐quality
health products and services. Specifically, while men who have sex with entertainment workers
(or “indirect” sex workers) have shown an improvement in consistently using condoms, none of
the other seven populations targeted by the project has demonstrated noteworthy change in
behavior, as explained below.

The five targeted populations under the HIV/AIDS component of the project are (1) men who
have sex with entertainment workers, (2) entertainment workers, (3) men who have sex with
direct sex workers, (4) direct sex workers, and (5) men who have sex with men (MSM). With
regard to the first of these five targeted populations, 69.4 percent of men who have sex with
entertainment workers reported consistent condom use in 2010, up from 59 percent when the
project began in 2008. However, there has been no demonstrated improvement in the other
four targeted populations. The percentage of those using condoms consistently did not
increase among entertainment workers (with whom men solicit sex), while the change among
men who have sex with direct sex workers was insignificant. Furthermore, the project did not
report on progress in persuading direct sex workers to use condoms or in conveying the same
message to men who have sex with men.

The two targeted populations under the reproductive health component of the project are (1)
married women of reproductive age in both urban and rural areas and (2) poor women living in
rural areas specifically identified as those most in need of modern contraceptive methods.
Although the project has dispelled some misconceptions among Cambodian women about the
side effects of hormonal methods3 of birth control, the percentage of women using modern
contraceptive methods does not appear to have increased substantially since the inception of
the project. Specifically, the percentage of married women of reproductive age using modern
birth control products increased from 42.7 percent in 2007 to 45.7 percent in 2010, while use


2
    Coverage represents at least one outlet in a village that sells oral contraceptives.
3
    Hormonal methods include the oral contraceptive pill, the injection, and the subdermal implant.


                                                                                                      2
among poor women in rural areas decreased slightly, from 46 percent in 2007 to 45.3 percent in
2010. However, neither change was statistically significant.

Lastly, it was too early to tell whether the health of children under 5—the final targeted
population—had improved through the increased use of ORS and water treatment tablets. The
portion of the project relating to child survival had not been going on long enough to
demonstrate meaningful results at the time of the audit.

The audit identified some areas for improvement, whether by adjusting the methodology of
providing project services or by more accurately reporting on the performance of the project.
Specifically, the audit found that:

•	 Outreach staff did not adequately or correctly represent hormonal birth control products to
   beneficiaries (page 5).

•	 Performance measurements did not reflect project impact. Specifically, performance
   information was sometimes convoluted and misleading; baselines, targets, and cumulative
   results were often lacking; and out-of-date information was sometimes reported as current
   (page 6).

The report recommends that USAID/Cambodia:

1. 	Review the training provided to outreach staff and revise the training to prepare staff to
    provide complete and accurate information (page 6).

2. 	 Work with its implementer to develop and implement a plan to adjust the project’s outreach
     program to represent hormonal birth control products adequately and correctly to
     beneficiaries (page 6).

3. 	Revise the 18 indicators identified in Appendix III to be objective in accordance with
    Automated Directives System 203.3.4.2(a) (page 7).

4. 	 Adequately define the seven performance indicators identified in Appendix IV and provide
     the methodology used to measure and report on them (page 7).

5. 	 Modify the reporting methodology for the six performance indicators shown in Appendix VI
     so that they closely track the intended results (page 7).

6. 	Assign life-of-project targets to all performance indicators in the project’s monitoring and
    evaluation plan (page 8).

7. 	 Require indicator baselines, cumulative accomplishments, and life-of-project targets to be
     included in the project’s annual performance reports alongside annual results (page 8).

8. 	Require timely data to support reported annual results. If the implementer is unable to
    provide the data for the fiscal year indicated in the performance reports, this data limitation
    needs to be clearly documented in the results reporting (page 9).

9. 	 Require the implementer to submit formal reports quarterly as required by the cooperative
     agreement, or amend the cooperative agreement to permit semiannual performance
     reporting instead (page 9).


                                                                                                 3
Detailed findings begin on the following page. Our evaluation of management comments is on
page 10.       The audit scope and methodology are described in Appendix I, and
USAID/Cambodia’s comments are in Appendix II. The project’s fiscal year 2010 reported
performance results are presented in Appendix III.




                                                                                        4
AUDIT FINDINGS 

Outreach Staff Did Not Represent
Hormonal Birth Control Products
Adequately or Correctly to Beneficiaries
According to the cooperative agreement, the largest barrier to women of reproductive age using
modern birth control methods is their concern about adverse health effects—particularly those
associated with hormonal methods such as the oral contraceptive pill, the injection, and the
subdermal implant. This barrier is the result of a lack of complete information.

To address this issue, the project aims to provide accurate information on birth control products
that addresses both real and perceived side effects. One of the project's key objectives is to
overcome the fear of serious health consequences relating to hormonal products and to
emphasize choice of methods. Modern birth control products, including socially marketed
brands, private sector brands of high quality, and government public sector brands, are all to be
promoted through a campaign to increase their use, grow the entire market, and crowd out
poor-quality brands.

The implementer has engaged in several types of outreach activities to provide information on
birth control products. These activities include broadcasting television and radio ads, educating
the providers who sell health products, using mobile video units,4 and sending outreach teams
to visit rural communities.

However, the project’s outreach to poor women in rural areas appears to be emphasizing the
intrauterine device (IUD)5 over other modern birth control products. This emphasis runs counter
to the project’s intent to dispel misconceptions regarding hormonal birth control products. From
interviews with project staff members, and through observations of their outreach activities to
targeted women, we discovered that the outreach teams visiting targeted women in rural
communities mentioned the various hormonal birth control products only in passing before
dedicating most of their presentations to the IUD. In fact, one staff member told us that she
advocates the IUD because it protects against cancer and has no side effects—both
misconceptions that could be passed on to IUD acceptors.

As a result, 20 of the 22 women of reproductive age interviewed during the audit indicated a
preference for the IUD. Specifically, 15 of the 22 women had already had an IUD inserted, 3 of
the women were in the process of having one administered (they were interviewed at a clinic),
and 2 had not yet decided on a birth control product, but said they would probably use the IUD.
Of the two women not preferring the IUD, one said she was abstaining from sex, and the other
had elected to employ an alternative method of birth control. A common reason given by the
women for why they chose the IUD was that it had no hormonal effect, unlike the other
contraceptive methods. They knew very little about the other contraceptive methods.



4	
     Mobile video units are teams that visit rural communities in a vehicle with audio-video equipment and
     outreach materials.
5	
     The IUD is a nonhormonal, long-term birth control device.


                                                                                                        5
We also identified instances where inaccurate information on the advantages, disadvantages,
and risks of birth control products led some women to use the IUD instead of the other products.
When asked why they chose the IUD over the subdermal implant, another long-term
contraceptive method, two women responded that outreach staff told them that they could still
get pregnant even with the implant.

The personnel conducting these outreach presentations to targeted women are largely
volunteers, working with organizations that are subgrantees to the project’s primary
implementing partner. These personnel informed us that they receive a day or so of training on
how to conduct their outreach presentations, very little of which teaches them about the various
birth control products. As noted above, one staff member even told us that the IUD protects
against cancer and has no side effects, demonstrating ignorance of the subject material.
Consequently, misconceptions about hormonal birth control products, which the project aimed
to reduce, may not be dispelled among poor women as intended. This is further demonstrated
by the lack of increase in the percentage of poor women using modern birth control products:
46 percent of such women used these products in 2007 compared with 45.3 percent in 2010.

Targeted beneficiaries need to receive a fair representation of all contraceptive methods. To
help beneficiaries reach an informed decision, we make the following recommendations:

   Recommendation 1. We recommend that USAID/Cambodia review the training
   provided to outreach staff and develop and implement a plan to ensure that staff are
   adequately prepared to provide complete and accurate information.

   Recommendation 2. We recommend that USAID/Cambodia work with its implementer
   to develop and implement a plan to adjust the project’s outreach program to ensure that
   hormonal birth control products are represented adequately and correctly to
   beneficiaries.

Performance Measurements Did Not
Reflect Project Impact
The project’s efforts have demonstrated little positive impact in increasing consistent and correct
use of high‐quality health products and services among priority, at‐risk populations—especially
the poor and vulnerable—to combat HIV/AIDS, improve reproductive health, and provide clean
drinking water. This lack of tangible results stems from (1) convoluted and misleading
performance information, (2) missing baselines, targets, and cumulative results in results
reporting and an absence of reporting on certain key impact data, and (3) a reliance on outdated
information. These factors appear to result from a weak monitoring and evaluation plan that did
not adequately communicate expectations.

Convoluted and Misleading Performance Information.               Reported performance was
convoluted and misleading in part because indicators were often not objective or direct.
According to USAID’s Automated Directives System (ADS) 203.3.4, “Performance indicators are
used to observe progress and to measure actual results compared to expected results.”
Performance indicators help answer how or whether a project is progressing toward its goal.
When selecting performance indicators, one should ensure they are objective—meaning they
are unambiguous, measure only one aspect at a time, and are precisely defined. ADS also
states that performance indicators should be direct so that they “closely track the results they
are intended to measure.”


                                                                                                 6
Of the project’s 33 performance indicators for fiscal year 2010, the audit found that 18 were not
objective (Appendix III). Targets and other extraneous information such as contradictory data,
incorrect dates, and confusing verbiage were included in their wording, rendering them overly
complicated and difficult to measure. In addition, 7 of the 18 indicators were not defined, and 4
indicators included multiple objectives, impeding a definitive conclusion as to whether desired
results are being achieved for a given indicator (Appendixes IV and V).

Several performance indicators, such as those for activities aimed at changing beliefs and social
norms about condom use and at increasing the use of modern contraceptive methods, were not
defined precisely. For example, Indicators 9, 10, 14, and 22 in Appendix IV measure “significant
improvement” in the beliefs and social norms of target populations, although “significant
improvement” has not been defined. Because of this lack of definition, indicators report the
results as values derived from surveys, which do not indicate whether an improvement has
been made. For example, a survey question put to high-risk urban men asked how likely they
were to propose condom use to sweethearts.6 The average response (on a four-point scale
where 1 means “strongly disagree” and 4 means “strongly agree”) was 2.42. This score means
the surveyed men generally were somewhat reluctant to propose condom use to sweethearts.
The value 2.42 does not measure progress, as one does not know how much a value needs to
increase in order to achieve a significant improvement. There is also no context to determine
whether this marks an improvement at all.

Furthermore, 5 of the project’s 33 indicators (those listed in Appendix VI except Indicator 13)
were not direct. They did not closely track the results they were intended to measure, causing
misleading and inaccurate results. For example, the use of birth control commodities by women
in the bottom 40 percent of the income distribution—one of the project’s priorities—was reported
to have increased by 45 percent from 2009 to 2010, compared with an annual target increase of
10 percent (Indicator 21, Appendix VI). However, 45 percent actually represents the percentage
of poor women using contraceptives—not a percent increase, as the indicator states. The
actual annual increase in users was only 7 percent in 2010. By not reporting on the percent
increase in use, the project misled stakeholders with inflated results. Therefore, we make the
following recommendations:

      Recommendation 3. We recommend that USAID/Cambodia revise 18 of the project’s
      33 performance indicators, identified in Appendix III, to be objective in accordance with
      Automated Directives System 203.3.4.2(a).

      Recommendation 4. We recommend that USAID/Cambodia adequately define the
      seven performance indicators identified in Appendix IV and provide the methodology
      used to measure and report on them.

      Recommendation 5. We recommend that USAID/Cambodia modify the monitoring and
      evaluation plan’s reporting methodology for the six project performance indicators shown
      in Appendix VI so that they closely track the results they are intended to measure.

Missing Baselines, Targets, and Cumulative Results. ADS 203.3.4.5 states that baselines
are needed to measure a project’s progress. A baseline should be included for each indicator
before the implementation of the project’s activities. Additionally, ambitious but realistic targets

6
    In the context of sex workers as used in this report, sweethearts are direct or in-direct sex workers who
     have male partners that generally do not pay with every act of sex, but with whom money or gifts may
     be exchanged over time.


                                                                                                           7
should be set for the end of the project with annual targets for the interim years. The auditors
note that reporting cumulative project activity results, along with definitions of how those results
are to be measured, provides context and a pragmatic view of how the project is progressing.

Despite the ADS guidance, 11 of the 33 indicators did not have necessary baseline data. We
were also unable to identify life-of-project targets for 28 of the 33 indicators (Appendix III). In
addition, the annual performance reports recognized only the reported accomplishments of that
particular year, with no mention of previous or cumulative results, making it difficult to measure
or acknowledge project performance accurately.

Furthermore, the implementer had not reported any results for 4 of the 33 indicators, despite
being almost 3 years into a 5-year project. Some of these indicators measure the impact of the
project’s efforts to assist targeted, high-risk populations. Men who have sex with men, for
example, were a high-risk population to which the project was to pay particular attention
(Indicators 15 and 16, Appendix III). Nevertheless, the project had not reported any progress in
reaching out to this cohort—even though the project is funding activities in this area.

As stated earlier, the use of birth control commodities by women in the bottom 40 percent of the
income distribution was reported to have increased by 45 percent from 2009 to 2010, though
the actual annual increase in users was only 7 percent in 2010. However, the report did not
acknowledge a 7.6 percent decrease in use the year before, resulting in a lack of change
overall. In other words, the cumulative percent increase through fiscal year 2010 was effectively
zero.

Without baseline data, targets against which accomplishments can be measured, and
cumulative accomplishments reported against life-of-project targets, it is difficult to determine
whether progress is being made in accomplishing the project’s objectives and where potential
weaknesses in implementation may be occurring.           We therefore make the following
recommendations:

   Recommendation 6. We recommend that USAID/Cambodia assign life-of-project
   targets to all performance indicators in the project’s monitoring and evaluation plan.

   Recommendation 7.         We recommend that USAID/Cambodia require indicator
   baselines, cumulative accomplishments, and life-of-project targets to be included in the
   project’s annual performance reports alongside annual results.

Outdated Results. ADS 203.3.5.1 states that performance data need to be timely enough to
influence management decision making at the appropriate levels. ADS also indicates that
known data limitations should be documented in annual reports. Reported results for 7 out of
14 key impact-related performance indicators relied on data that had been obtained roughly a
year before it was reported (Appendix VII). In other words, data reported for fiscal year 2010
reflected results from earlier periods. Asked the reason for reporting old data, an official
working for the implementer informed us that the implementer had to perform too many surveys
and was unable to conduct them all in time for annual reporting. Thus, the implementer used
prior-year results when current-year results were not yet available.

In addition to reporting outdated information, the implementer has been submitting semiannual
performance reports, despite the project’s cooperative agreement requiring quarterly reporting.
Quarterly reporting was called for to provide the mission with timely information on progress,
problems encountered, and success stories. Although there was an informal understanding


                                                                                                  8
between the implementer and the agreement officer’s technical representative not to require
quarterly reporting, no formal authorization was given to do away with the requirement.

Obtaining an accurate depiction of the project’s impact becomes muddled when relying on data
that was current a year or more ago. In other words, it is misleading to represent data as
pertaining to fiscal year 2010 when in fact it comes from prior fiscal years. Likewise, not
providing the mission with formal performance reports as frequently as required in the
cooperative agreement reduces the mission’s ability to monitor the project and maintain the
intended level of substantial involvement. We therefore make the following recommendations:

   Recommendation 8. We recommend that USAID/Cambodia require more timely data
   to support reported annual results. If the implementer is unable to provide the data for
   the fiscal year indicated in the performance reports, this data limitation needs to be
   clearly documented in the results reporting.

   Recommendation 9. We recommend that USAID/Cambodia require the implementer to
   submit formal quarterly reports as required by the project’s cooperative agreement, or
   amend the cooperative agreement to permit semiannual performance reporting instead.




                                                                                              9
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report and
determined that management decisions have been reached on Recommendations 1, 3, 4, 6, 7,
8, and 9. Management decisions have not been reached on Recommendations 2 and 5. Below
is OIG’s evaluation of USAID/Cambodia’s management comments.

For Recommendation 1, the mission plans to conduct a technical review of training to ensure
outreach workers are trained and supported to provide informed choice. The target date for
completion of these actions is July 1, 2011. We conclude that a management decision has
been reached on this recommendation.

For Recommendation 2, the mission referred to actions being taken for Recommendation 1—
merely reviewing outreach worker training and support—actions that do not address the intent
of Recommendation 2. The outreach presentation itself is being questioned as it currently
emphasizes only one method of birth control. The presentation itself needs to be adjusted to
ensure that all family planning methods are fairly represented. A management decision will be
reached once the mission develops a plan to adjust the current presentation, and final action will
be taken when that plan is implemented.

For Recommendation 3, the mission agreed to revise the indicators identified in Appendix III.
The target date for completion of these actions is June 1, 2011. We conclude that a
management decision has been reached on this recommendation.

For Recommendation 4, the mission plans to provide footnotes within the project’s logframe to
define terminology included in the performance indicators. OIG would like to remind the mission
to ensure that the performance indicators identified in annual reporting reconcile with the
indicators located in the logframe. The target date for completion of these actions is June 1,
2011. We conclude that a management decision has been reached on this recommendation.

For Recommendation 5, the mission generally agreed to modify and better define the Appendix
VI performance indicators and reported results, but disagreed that the indicator relating to liters
of drinking water disinfected needed to be clarified. The mission felt the calculation used to
estimate disinfected drinking water was still sound despite our discovery that beneficiaries are
generally told to use two tablets (not one) on the same amount of water if that water is not clear.
The “water disinfected” calculation does not take this into account. In addition, it does not make
sense to report the number of “water treatment tablets sold” (an output-related achievement) as
“water disinfected” (an impact-related achievement). By not reporting the accomplishment as
“number of water treatment tablets sold,” the reported result ignores any number of factors that
could cause the reported amount of water disinfected to be overstated, such as using two
tablets instead of one for unclear water, the product remaining unsold in sales outlets, product
expiry, etc. Until this indicator is addressed, a management decision cannot be reached.

For Recommendation 6, the mission is working with the project implementer to finalize life-of-
project targets for the logframe indicators. The target date for completion of these actions is
June 1, 2011. We therefore conclude that a management decision has been made. Final



                                                                                                10
action will be reached on this recommendation when all 33 performance indicators reported in
the annual performance reports are represented in the logframe.

For Recommendation 7, the mission is working with the project implementer to finalize indicator
baselines, cumulative accomplishments, and life-of-project targets in the logframe indicators.
The target date for completion of these actions is June 1, 2011. We therefore conclude that a
management decision has been made. Final action will be reached on this recommendation
when all 33 performance indicators reported on in the annual performance reports are
represented in the logframe.

For Recommendation 8, any data limitation will be presented and documented in what will be
the next quarterly report, due on April 30, 2011. The target date for completing actions is July 1,
2011. We conclude that a management decision has been reached on this recommendation.

For Recommendation 9, the mission will initiate quarterly reports starting with the second
quarter of fiscal year 2011, with the report due to the mission on April 30, 2011. The
subsequent quarterly report will be received by the mission in August 2011, and receipt of this
report will verify that the mission has complied with the recommendation. The target date for
completion of these actions is August 31, 2011. We therefore conclude that a management
decision has been reached on this recommendation.

OIG would also like to respond to the general comments in the mission’s written response:

Mission comment number one—Audit of behavior-change communication projects

OIG response: The mission expressed its concern that specific statements within the audit
findings did not accurately reflect the project’s progress/accomplishments. The mission
highlighted the success of key indicators such as high-risk urban men reporting consistent use
of condoms with sweethearts, a success that the OIG audit report has already acknowledged.
The mission also highlighted high-risk urban men reporting consistent condom use with
commercial sex partners having increased from 85 percent in 2008 to 96 percent in 2009, noting
that results in 2008 were lower than previous years (in 2007 a rate of 94 percent consistent
condom use was reported). It is our opinion that choosing to ignore the data from the year
immediately preceding the beginning of the project discounts the most reliable baseline
measurement available.

In another instance, the mission chose to use 2006 data as the baseline instead of 2007 data,
which we viewed in the FY 2010 Annual Performance Report. We noted that the 2006 data
provided a much lower starting point than 2007, thus benefitting any future comparisons.

Also, the OIG audit report acknowledged a small improvement in the percentage of married
women of reproductive age using modern birth spacing methods from 43 percent in 2007 (note,
this is another baseline prior to the project period) to 46 percent in 2010. While a slight
increase, the improvement is statistically insignificant—especially considering the widely varied
range of survey results reported over the last few years.

Mission comment number two—Population-based surveys

OIG response: The mission stated that the project did not conduct population based surveys
for two population groups: people living with HIV/AIDS and injection drug users. OIG would like
to reiterate that the audit never questioned the fact that the implementer did not conduct


                                                                                                11
behavior surveys of people living with HIV/AIDS or injecting drug users. The cooperative
agreement cited a number of at-risk target populations, but also noted that given limited
resources, the project would prioritize those individuals engaging in overlapping risk behaviors.
The audit did not question the project’s selection of targeted populations. OIG is not sure why
this concern was expressed.

Mission comment number three—Other areas of improvement

OIG response: The mission expressed concern that the findings of the report do not reflect the
upward trend of condom use and relevant support since 1993. However, the report’s Summary
of Results clearly identifies this positive trend for both condom use and modern birth spacing
products from prior years up until the time of the current SMBCI Project. The purpose of the
audit, though, was to review the activities of the SMBCI Project—not prior achievements.

The mission also highlighted the project’s success in increasing access to health products,
which OIG also acknowledged in the report. The issues developed in the audit related to
behavior change itself, not product availability.

Mission comment number four—Exposure to multiple sources of information on FP

OIG response: The mission highlights the multiple communication channels the project has
used to achieve project goals and objectives, including radio and television ads. However, a
2010 reproductive health survey determined that only 44.7 percent of households had a radio
and only 67 percent had a television. Since the outreach workers (another communication
channel) visited women in rural communities, it would appear evident they were attempting to
reach out to poor women who would have less of a chance of having access to either radio or
television. In any case, the audit specifically identified the outreach intervention as having
emphasized one method of birth control—though we do not deny that other communication
channels may have provided information on other birth control methods.

Mission comment number five—Increasing access to the range of FP options in a community

OIG response: The mission noted that IUDs are supported by USAID programs along with
other methods, but that IUDs had been long neglected in Cambodia. OIG understands the need
to educate women about the IUD and is not saying to do otherwise. However, the SMBCI
Project specifically identified misconceptions about hormonal birth spacing products as a major
barrier to family planning acceptance, a barrier the project was designed to address. For that
reason, the project needs to educate women about all the available products—and not focus on
just one nonhormonal birth-spacing product.

Other OIG Comment:

In addition, the mission suggested in the third paragraph of the cover page of its management
comments that OIG should audit behavior-change projects—such as the SMBCI Project—
toward the end of the project to allow for better measurement of project impact. OIG
understands that auditing such a project toward the end of implementation would provide a
better measurement of the project’s overall impact. However, it is also important to evaluate a
project midway through implementation to identify deficiencies in implementation or in data
reporting. Reviewing a project midway permits changes to be made if found necessary.




                                                                                              12
                                                                                              Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing
standards.7 Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Cambodia’s Social Marketing and
Behavior Change Interventions for HIV/AIDS, Reproductive and Sexual Health and Child
Survival in Cambodia Project was achieving its main goal of improving the health of poor and
vulnerable Cambodians. To implement the project, USAID awarded a $15.9 million cooperative
agreement to Population Services International, covering a 5-year period from February 5,
2008, through February 4, 2013. Under this agreement, the project’s activities are expected to
(1) increase access to condoms, birth control products, and ORS, (2) increase Cambodian
national capacity to manage and sustain results over the long term with reduced dependence on
donors, and (3) improve knowledge, awareness, and supportive attitudes to change behaviors
among priority populations.8     As of September 30, 2010, cumulative obligations and
disbursements under the project totaled $11.2 million and $8.4 million, respectively.

The audit covered project activities over roughly a 2.5-year period, from the inception of the
project on February 5, 2008, through September 30, 2010. In general, the audit involved (1)
validating reported results for selected key performance indicators through testing, and (2)
conducting site visits to selected project-supported communities to observe classes and
interview beneficiaries. Of the project’s 33 performance indicators, the audit focused on those
that related most directly to achieving the project’s main goals.

Testing aimed to validate the data reported under these indicators. For each selected project
activity, the audit team checked the data reported during the period covered by the audit against
supporting records on file with the implementer. Since this testing was based on a
judgmental―not a statistical―sample of indicators and provinces, the results and overall
conclusions related to this analysis were limited to the items tested and cannot be projected to
the entire audit universe.

As part of the audit, we assessed the significant internal controls used by USAID/Cambodia to
monitor program activities. The assessment included controls related to whether the mission had
(1) conducted and documented site visits to evaluate progress and monitor quality, (2) required
and approved an implementation plan, and (3) reviewed progress reports submitted by the
implementer. We also examined the mission’s fiscal year 2010 annual self-assessment of


7	
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).
8	
     A fourth project component is to increase the knowledge and evidence base for effective and efficient
     social marketing and behavior-change interventions through internationally presented papers and
     research disseminated to partners in Cambodia. We did not include this component in the scope of our
     audit because the component did not appear to have an immediate effect on the project’s main goal.


                                                                                                       13
                                                                                         Appendix I


management controls, which the mission is required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982,9 to determine whether the assessment cited any
relevant weaknesses.

Audit fieldwork was performed at the USAID/Cambodia mission as well as at the implementer’s
offices in Phnom Penh from November 2 to 13 and from December 5 to 11, 2010. In that
period, the audit team conducted field trips over the course of 5 days through seven provinces
(Phnom Penh, Kandal, Campong Chhnang, Pursat, Battambang, Siem Reap, and Kampong
Thom) to conduct site visits to selected communities to observe project activities and interview
beneficiaries as well as implementer staff. During these site visits, the auditors visited several
communities and obtained input from over 80 individuals.

Methodology
To determine whether the project was achieving its main goal, the audit team initially
interviewed key staff in USAID/Cambodia’s Office of Public Health and Education and at the
implementer’s offices to gain an understanding of the project, the key players and their roles
and responsibilities, and the reporting procedures and controls in place for monitoring the
project. Additional work to answer the audit objective was divided into two parts: (1) validating
the results data reported under selected key performance indicators against supporting records
on file with the implementer and (2) conducting field trips to selected communities to interview a
sample of project beneficiaries.

In validating the project results, the audit team initially identified key impact-related performance
indicators to be tested (Appendix III). The audit team then reviewed the results data reported
under these selected indicators, from the inception of the project in February 2008 through
September 2010, checking the reported data against records on file with the implementer. To
view a wide range of project activities, the audit visited selected activity sites in 7 of the
country’s 24 provinces.

To assess the test results, the audit team established a materiality threshold of 85 percent that
was based in part on the challenging environment in which the project operated. For example, if
at least 85 percent of tested results data reported under a specific performance indicator for a
selected province were found to be adequately supported, the auditors concluded that the
reported results were reasonably accurate.




9
    Public Law 97–255, as codified in 31 U.S.C. 3512.


                                                                                                  14
                                                                                           Appendix II




MANAGEMENT COMMENTS 



                                                                                       March 18, 2011



MEMORANDUM

TO:            Bruce N. Boyer
               Regional Inspector General, Manila

FROM:          Flynn Fuller /s/
               Mission Director, USAID/Cambodia

SUBJECT:       Audit of Social Marketing and Behavior Change Interventions for HIV/AIDS,
               Reproductive and Sexual Health and Child Survival in Cambodia Project (Audit
               Report No. 5-442-11-00X-P)

Reference:     (1)     BBoyer/FFuller Memo Dated February 16, 2011

In response to the Audit of Social Marketing and Behavior Change Interventions for HIV/AIDS,
Reproductive and Sexual Health and Child Survival in Cambodia Project (Audit Report No. 5-
442-11-00X-P) that USAID/Cambodia received on February 16, 2011, USAID/Cambodia
appreciates the opportunity to respond and provide comments on the audit review.

USAID/Cambodia commends the professionalism and thoroughness of the Regional Inspector
General (RIG)/Manila audit team.      After careful review of the audit findings and
recommendations, we would suggest the following actions as described below.

As a general comment, because changing individual behavior is complex and typically requires
concerted inputs over an extended period of time, we would suggest that a behavior change
project be audited at a later stage of the cooperative agreement to allow for a truer evaluation of
the project’s impact. Population Service International (PSI)/Cambodia was audited by RIG at
the halfway point of its five-year cooperative agreement. Given that the RIG is mandated to
consider only data that is disseminated within the life of this project, we believe that it is difficult
to evaluate impact-level indicators of the project, simply because there has been an inadequate
amount of time for changes in behavior to have occurred. Consequently, RIG may consider
scheduling evaluations of projects which are primarily aimed at changing behavior so that they
fall closer to the end of the project. Related to the RIG’s specific audit recommendations,
please find USAID/Cambodia responses below:




                                                                                                     15

                                                                                     Appendix II


USAID/Cambodia responses to the RIG’s specific audit recommendations:

   1. 	 We recommend that USAID/Cambodia review the training provided to outreach staff and
        develop and implement a plan to ensure that staff are adequately prepared to provide
        complete and accurate information.
               USAID/Cambodia OPHE technical staff will review all PSI/Cambodia training
               programs to ensure that the training accurately provides information to outreach
               workers on all methods. Outreach workers are trained and supported to provide
               informed choice. However, PSI/Cambodia will ensure that monitoring of program
               activities verifies that information on all methods is provided. USAID/Cambodia
               will conduct a technical review of training, as suggested, by July 1, 2011. A plan
               will be developed to address gaps in counselling skills that are found.

              On January 26, 2011, the OPHE office director and the regional legal advisor
              (RLA) provided family planning (FP) compliance training to OPHE partners.
              USAID/Cambodia will continue to work with the RLA and partners to make sure
              that OPHE FP activities are in compliance with relevant guidelines.

   2. 	We recommend that USAID/Cambodia work with its implementer to develop and
       implement a plan to adjust the project’s outreach program to ensure that hormonal birth
       control products are represented adequately and correctly to beneficiaries.
               Please see the explanation to Audit Recommendation 1. USAID/Cambodia will
               develop a plan to adjust the outreach program by July 1, 2011 and implement by
               October 1, 2011.

   3. 	We recommend that USAID/Cambodia revise 18 of the project’s 33 performance
       indicators, identified in Appendix III, to be objective in accordance with Automated
       Directives System (ADS) 203.3.4.2(a).
               USAID/Cambodia agrees with the recommendation and comments and will
               revise indicators accordingly. An updated logframe will be finalized by June 1,
               2011. It is important to note that all current indicators are part of an overall
               performance monitoring framework which includes:
                   •	 A plan for evaluation used to measure progress over time and to
                       understand any obstacles impeding progress (identified on the logframe);
                   •	 Defined baselines, life-of-project targets, and annual milestones (on the
                       logframe and in the annual workplan);
                   •	 Identified methods for data collection used;
                   •	 Collection and analysis of data on a semi-annual basis and during
                       monthly meetings;
                   •	 Use of data to allocate resources during annual workplan and budget
                       allocation meetings.




                                                                                              16
                                                                                    Appendix II


4. 	We recommend that USAID/Cambodia adequately define the seven performance
    indicators identified in Appendix IV and provide the methodology used to measure and
    report on them.
            USAID/Cambodia agrees with both the recommendation and comments and will
            provide footnotes within the logframe to adequately define terminology in the
            performance indicators. PSI/Cambodia, in consultation with USAID/Cambodia,
            will submit revised indicators for final approval by May 1, 2011. An updated
            logframe will be finalized by June 1, 2011.

5. 	We recommend that USAID/Cambodia modify the monitoring and evaluation plan’s
    reporting methodology for the six project performance indicators shown in Appendix VI
    so that they closely track the results they are intended to measure.
            USAID/Cambodia agrees with the specific comments in Appendix VI that
            “significant improvement” must be formally defined, and that reported
            performance results need to be revised. Where results are measured by a score,
            PSI/Cambodia will provide a denominator and further explanation in footnotes.
            USAID/Cambodia will review the comments regarding indicator 21 and 30 and
            revise the reported results as necessary. An updated logframe will be finalized
            by June 1, 2011.

           USAID/Cambodia does not agree with the comment on indicator 30 in Appendix
           VI. In terms of calculations, the estimate of liters of drinking water disinfected is
           consistent with donor indicator guidelines. There was an error, however, in
           PSI/Cambodia’s original report (564,000 tabs) for FY 2010. 140,890 strips of
           safe water tabs were distributed in FY 2010 which contributed to 28,178,000 liters
           of safe water (1 strip=10 tabs).

6. 	 We recommend that USAID/Cambodia assign life-of-project targets to all performance
     indicators in the project’s monitoring and evaluation plan.
             As noted in Audit Recommendation 3, nearly all targets include a baseline,
             annual milestones, and life-of-project targets. Information from the logframe
             (baseline and life-of-project targets) and annual work plans (annual milestones)
             has already been updated and summarized in one comprehensive document.
             USAID/Cambodia will work with PSI/Cambodia to finalize life-of-project targets in
             the logframe indicators. An updated logframe will be finalized by June 1, 2011.

7. We
   	     recommend that USAID/Cambodia require indicator baselines, cumulative
   accomplishments, as well as life-of-project targets to be included in the project’s annual
   performance reports alongside annual results.
           As noted in Audit Recommendation 3 nearly all targets include a baseline, annual
           milestones, and life-of-project targets. Information from the logframe (baseline
           and life-of-project targets) and annual work plans (annual milestones) has
           already been updated and summarized into one comprehensive document.
           USAID/Cambodia will work with PSI/Cambodia to finalize indicator baselines,




                                                                                             17
                                                                                      Appendix II


              cumulative accomplishments, and life-of-project targets in the logframe
              indicators. An updated logframe will be finalized by June 1, 2011.

   8. 	We recommend that USAID/Cambodia require more timely data to support reported
       annual results. If the implementer is unable to provide the data for the fiscal year
       indicated in the performance reports, this data limitation needs to be clearly documented
       in the results reporting.
               Any data limitation will be presented and documented in the FY 2011 semi-
               annual report to USAID/Cambodia that is due on April 30, 2011.
               USAID/Cambodia will verify that these steps have been taken by July 1, 2011.

   9. 	We recommend that USAID/Cambodia require the implementer to submit formal
       quarterly reports as required by the project’s cooperative agreement, or amend the
       cooperative agreement to permit semiannual performance reporting instead.
              PSI/Cambodia will initiate the quarterly reports starting with the second quarter of
              FY 2011 that is due to USAID/Cambodia on April 30, 2011. The subsequent
              quarterly report will come to USAID/Cambodia by August 1, 2011 and receipt of
              the report for the third quarter of FY 2011 will verify that PSI/Cambodia has
              complied with this recommendation. Final action is expected by August 31,
              2011.

We request RIG/Manila’s concurrence that management decisions have been made on all nine
recommendations.



General Comments on the report:

1. 	 Audit of behaviour change communication projects: We appreciate the phone call on March
     2, 2011 that RIG had with representatives from PSI/Cambodia and the USAID/Cambodia
     OPHE office. The additional assistance provided by RIG has been helpful in preparing a
     response to the audit findings. We would also like to acknowledge that RIG indicated that
     specific changes would be made to the Summary of Results and the Audit Findings based
     on this teleconference. Our discussion was in reference to the statement below:

       Audit of Social Marketing and Behavior Change Interventions for HIV/AIDS,
       Reproductive and Sexual Health and Child Survival in Cambodia Project, page 2: While
       the project... 'has successfully increased access to health products and provided training
       to individuals and organizations to increase Cambodian national capacity, the project
       has demonstrated limited impact in improving the health of poor and vulnerable
       Cambodians. This is because only one of eight at-risk populations targeted by the
       project has demonstrated a positive change in behaviors through improved knowledge,
       awareness, and supportive attitudes."

While we appreciate the revisions to the statement above, USAID/Cambodia believes that
specific statements within the audit findings do not accurately reflect the in-depth findings



                                                                                               18
                                                                                                    Appendix II


presented in the RIG report. Consider the progress on key indicators for the program,
summarized below:

Indicators showing progress include:
        •	 Percentage of high risk urban men who report consistent use of condoms with
           sweetheart partners increased from 58% in 2008 to 69% in 2010;
        •	 Percentage of high risk urban men who report consistent use of condoms with
           commercial partners increased from 85% in 2008 to 96% in 2009. While there was a
           decrease from 2006 to 2008, this decrease was not in the project period.


Changing individual behavior can take a long time, perhaps longer than can be tracked within
the time frame of a five-year project. If considering progress against baseline data prior to
2008:

             •	 Percentage of high risk urban female entertainment workers (EW) who report
                consistent condom use with sweethearts increased from a 41% baseline in 2006
                to 51% in 2010.
             •	 Percentage of men who have sex with men (MSM) who report consistent
                condom use with paying and non-paying casual partners increased to 81%.
                Directly comparable baseline data is not available. However, using the 2006
                behavioral surveillance survey (BSS) which disaggregates MSM by 'short hair'
                and 'long hair' and using the directly comparable measure available - 'always use
                condom' (same as PSI/Cambodia’s definition of consistent condom use) – the
                baseline was 44% for short hair and 42% for long hair. The baseline cited in the
                logframe was 47%.

        Another indicator that suggests progress if one were to examine data prior to the
        baseline[1]:

             •	 Percentage of currently married women of reproductive age (WRA) using modern
                birth spacing methods [contraceptive prevalence rate (CPR)][2] increased from
                baseline of 43% in 2007 to 46% in 2010.

2. Population-based surveys:
                       	        PSI/Cambodia does not conduct population-based surveys
   (hereafter referred to as TRaC) for two populations – people living with HIV/AIDS (PLHIV)
   and injection drug users (IDU). PSI/Cambodia resources are, as described in the design
   document, heavily skewed towards interventions that target high-risk populations which are
   driving the existing HIV epidemic in Cambodia - Male Clients, EW, and MSM for HIV. The
   Agreement Officer’s Technical Representative (AOTR) will seek guidance from the
   Agreement Officer (AO) as to whether the AOTR can instruct PSI to include TraC surveys



[1]
  At the mid-term of this project, this indicator is statistically insignificant.
[2]
  TRaC survey sampling criteria are limited to women that ‘currently wish to delay or prevent pregnancy’ and
indicators are therefore higher than Cambodia Demographic Health Survey (CDHS).


                                                                                                               19
                                                                                     Appendix II


   for PLHIV and IDU through a revision to its work plan or if an amendment to the Cooperative
   Agreement is required to include this new activity.

3. Other areas of improvement: The statement does not reflect the improvement in key
   output level indicators which demonstrate a positive impact toward achieving overall
   program objectives.

           •	 The findings in the audit report do not reflect the upward trend of condom use
              and relevant support of PSI/Cambodia’s programs in Cambodia since 1993.
              Cambodia is one of the few countries to demonstrate a decrease in HIV
              prevalence globally, in large part to the Ministry of Health (MoH)-led and
              PSI/Cambodia supported 100% condom use program and condom social
              marketing efforts, which resulted in dramatic increases in behavior (see the 2010
              BSS data for long term trends against 2006).

           •	 Key output-level (access) indicators exceeded five year targets in the first two
              years of the project; these included penetration of high risk outlets for HIV,
              measured across specific outlets, and increases in FP planning products found in
              both urban and rural areas. Targets are being renegotiated and will be
              subsequently increased.

           •	 The program has demonstrated increases in sales of short-term (ST) FP
              methods and provision of long-term (LT) methods of contraception, resulting in a
              34% growth in couple years of protection (CYP) from 2007 to 2010 for non-
              condom contraceptives [oral contraceptive pills (OCP), injectables, implants,
              intrauterine devices (IUDs)]. PSI/Cambodia programs account for 45%-49% of
              the CYP generated in Cambodia - just under half of all women using a modern
              contraceptive method do so with the support of USAID-funded, PSI/Cambodia-
              managed social marketing programs.

           •	 The program is also on track on other output-level targets and has met or
              exceeded nearly every activity-level indicator.

4. 	 Exposure to multiple sources of information on FP: It's important to note that USAID through
     PSI/Cambodia invests in a variety of communication channels to achieve program goals and
     objectives. Mass media included the development of four method-specific advertisements
     for both TV and radio, aiming to introduce the four methods predominantly available in
     Cambodia – namely oral contraceptives, injectables, implants, and IUDs. All four spots were
     widely aired. An additional three complementary TV and radio spots targeting husbands,
     encouraging them to be involved in FP decisions and support their wives in the use of
     contraception, were also developed and aired. Outdoor advertising (billboards) and posters,
     and information, education, and communication (IEC) materials also supported the
     campaign. Mass media campaigns are supported with mobile video units, which again
     present all methods available. Providers are supported with behavior change materials
     focusing on each of the four methods available.



                                                                                              20
                                                                                    Appendix II


   A final important yet proportionate investment is made in outreach workers to communicate
   directly with WRA. As with any interpersonal communications program, these programs
   need continual strengthening and outreach workers need training and quality assurance
   (QA)/supervision. All PSI/Cambodia sub-grant partners receive a quarterly visit by
   PSI/Cambodia monitoring teams. The teams consist of PSI/Cambodia interpersonal
   communication, monitoring and evaluation, and finance staff members who monitor the
   quality of interventions, the internal monitoring systems, and the accuracy of financial
   systems. Each sub-grant partner is required to develop and implement quarterly monitoring
   plans which include regular observations of interpersonal communication sessions, and
   interviews with target groups. Outreach workers have been trained to provide fair and
   accurate information on all methods available. Given the complexity of information
   presented to women, messaging is often presented in cycles, where an emphasis is placed
   on knowledge of one particular method during a cycle. During the time of the audit field
   work, outreach workers were focusing on IUDs. In general, outreach workers present all
   methods available and refer women to public and private health centers for general birth
   spacing. Still, IUDs remain an important focus of the program. This is because WRA
   typically have high knowledge and awareness of ST methods while knowledge and use of
   IUDs remain low. Key barriers to IUD use are access and availability, so utilizing outreach
   workers for referrals is an appropriate channel to increase use. In order to address
   knowledge and behavioral gaps of the IUD, additional time is often spent on educating
   women about the method.

5. 	Increasing access to the range of FP options in a community: IUDs are supported by
    PSI/Cambodia programs, along with a basket of other methods, as the IUD in Cambodia
    has long been neglected. For years the IUD was not widely available; few providers
    supported the provision of IUDs and, when they did, IUDs were expensive. PSI/Cambodia's
    USAID-supported programs break down fundamental barriers to the IUD in an attempt to
    even out the playing field which is actually biased toward ST methods, given the
    widespread availability of oral contraceptives and injectables. PSI/Cambodia operates within
    the context of a holistic reproductive health program in Cambodia, where various activities
    occur which may emphasize one method over another. For instance, MoH community-based
    distributors have long promoted the oral contraceptive exclusively and gain profit through
    the sale of ST methods. PSI/Cambodia’s partners are trained to support all methods;
    specific tools have been developed to introduce all methods, and PSI/Cambodia is
    committed to ensuring that accurate, clear, and correct information is presented during
    every behavior change session.


Please let us know if we can clarify any comments and we look forward to strengthening the
project though the implementation of the audit’s recommendations.




                                                                                             21
                                                                                                                             Appendix III


Auditor Review of the Project’s Fiscal Year (FY) 2010 Performance Indicators and Reported Results
        Source: SMBCI Project’s FY 2010 Annual Performance Report                               Auditor Review
                                                                                                                              Life-of-
                                                         FY 2010     FY 2010       Indicator is                    Annual
  #              Performance Indicators                                                              Baseline?                Project
                                                          Actual      Target       Objective?                      Target?
                                                                                                                              Target?
        Number of individuals trained in HIV-related                                                    Not
  1                                                       483          250              Yes                         Yes          No
        institutional capacity building                                                              applicable.
        Number of local organizations provided with
                                                                                                        Not
  2     technical assistance for HIV-related               16           16              Yes                         Yes          No
                                                                                                     applicable.
        institutional capacity building
        Number of individuals trained in strategic
                                                                                                        Not
  3     information (includes monitoring and              150          100              Yes                         Yes          No
                                                                                                     applicable.
        evaluation, surveillance, and/or MIS)
        Number of local organizations provided with                                                     Not
  4                                                        16           16              Yes                         Yes          No
        technical assistance for strategic information                                               applicable.
                                                                                                        Not
  5     Number of targeted condom service outlets         5,399       7,500             Yes                         Yes          No
                                                                                                     applicable.
        Number of individuals trained to promote
        HIV/AIDS prevention through other behavior                                                      Not
  6                                                       899          480              Yes                         Yes          No
        change beyond abstinence and/or being                                                        applicable.
        faithful
        98% of direct sex workers report consistent                                                     None                   Yes (in
  7                                                       N/A          N/A                                           No
        condom use with clients by 2012                                                                listed.                indicator)
        Increase consistent condom use in "high-
        risk sweetheart relationships" among high-                    To be            No. The          None
  8                                                      50.5%                     indicators are                    No          No
        risk urban female entertainment workers                     determined                         listed.
        from X% in 2009 to Y% in 2012                                                not explicit,
        Among high-risk urban men with “high-risk                                     as targets
                                                                     Significant          are
        sweetheart relationships,” significant                                                         2.56 in
  9                                                       2.42     improvement      incorporated                    Yes          No
        improvement in subjective norms about                                                          Year ?
                                                                   from baseline      into them.
        proposing condom use to sweetheart
        Among high-risk urban female entertain-
                                                                      To be                             None
  10    ment workers, significant increase on beliefs     3.16                                                       No          No
                                                                    determined                         listed.
        about background and trust in partner




                                                                                                                                            22
                                                                                                                   Appendix III


     Source: SMBCI Project’s FY 2010 Annual Performance Report                                Auditor Review
                                                                                                                    Life-of-
                                                  FY 2010     FY 2010      Indicator is                  Annual
#             Performance Indicators                                                         Baseline?              Project
                                                   Actual      Target      Objective?                    Target?
                                                                                                                    Target?

     98% of men who report commercial sex
                                                                                               None                  Yes (in
11   report consistent use of condoms with        95.6%        85%                                        Yes
                                                                                              listed.               indicator)
     commercial sex workers by 2012


     Increased percentage of high-risk urban
     men with high-risk sweethearts who use
                                                                                              59% in
12   condoms consistently with their              69.4%        62%                                        Yes          No
                                                                               No. The         2008
     "sweethearts" from 59% in 2008 to 62% in
     2010                                                                  indicators are
                                                                             not explicit,
                                                                              as targets
     Among high-risk urban men with high-risk                                     are
     sweethearts, increase from 93.3% in 2008                               incorporated
                                                                              into them.     93.3% in
13   to 94% in the belief that condoms are        87.3%        94%                                        Yes          No
                                                                                              2008
     appropriate and necessary to use with a
     sweetheart by 2010


     Among high-risk urban men with high-risk
     sweethearts, significant increase in the                Significant                      3.11 in
14                                                 3.06                                                   Yes          No
     mean score for scaled construct on beliefs             Improvement                        2008
     about background and trust in a partner

                                                                              No. The
                                                                            indicator is
     Increase from 83% (short-haired MSM) and                               not explicit;
     94% (long-haired MSM) in 2007 to 88%                    88% short-      does not
                                                                                             83% and
     (short-haired MSM) and 97% (long-haired                haired MSM,    measure only                              Yes (in
15                                                 N/A                                        94% in      Yes
     MSM) of men who have sex with men                       96% long-     one aspect at                            indicator)
                                                                                               2007
     (MSM) using condom at last sex with                    haired MSM         a time.
     nonpaying, paying male partner by 2012                                    Target
                                                                            included in
                                                                             indicator.




                                                                                                                                  23
                                                                                                                        Appendix III


       Source: SMBCI Project’s FY 2010 Annual Performance Report                                   Auditor Review
                                                                                                                         Life-of-
                                                      FY 2010      FY 2010      Indicator is                  Annual
 #              Performance Indicators                                                            Baseline?              Project
                                                       Actual       Target      Objective?                    Target?
                                                                                                                         Target?
                                                                                    No. The
       Significant improvement in key behavioral
                                                                                  indicator is
       determinant which affect men who have sex                   Baseline                         None
16                                                      N/A                      not explicit,                  No          No
       with men to consistently use condoms with                  established                      listed.
                                                                                as a target is
       their male partners
                                                                                included in it.

       Outlet penetration for condoms will be
17     maintained or increased in the following
       high-risk outlets by 2010:
       Phnom Penh
17.1   Brothel                                         96.3%        100%            No. The
17.2   Guest house                                     92.3%         95%          indicator is
                                                                                                    None
                                                                                 not explicit,                 Yes          No
17.3   Beer garden                                     70.5%        65%                            listed.
                                                                                as a target is
17.4   Massage parlor                                  62.8%        55%         included in it.
17.5   Karaoke bar                                     70.8%         50%
       Other urban areas
17.6   Brothel                                         100%         100%
17.7   High-risk outlets                               82.9%         60%
       Condoms (all sources) sold and distributed                                  No. The
       in Cambodia exceed 31.5 million in 2008                                   indicator is
18     (social marketing sales minimum 26 million)   23,190,032   28,000,000     not explicit;
       and show continued growth in the total                                     does not
       market over time                                                         measure only
                                                                                one aspect at       None
                                                                                                               Yes          No
       PSI/Cambodia social marketed condoms                                        a time.         listed.
18.1                                                 18,269,874   20,000,000     Target and
       (Number One and OK brand)
                                                                                    other
18.2   Condoms distributed by the public sector      1,120,158    4,250,000       incorrect
                                                                                data included
18.3   Condoms sold by private companies             3,800,000    3,750,000          in it.




                                                                                                                                       24
                                                                                                                              Appendix III


       Source: SMBCI Project’s FY 2010 Annual Performance Report                                        Auditor Review
                                                                                                                               Life-of-
                                                         FY 2010       FY 2010      Indicator is                    Annual
 #               Performance Indicators                                                               Baseline?                Project
                                                          Actual        Target      Objective?                      Target?
                                                                                                                               Target?
       Number of United Health Network
       nongovernmental organizations (NGOs)
       contracted to conduct effective HIV/AIDS
                                                                                                         Not
19     behavior change interventions … as well as           16            16             Yes                         Yes          No
                                                                                                      applicable.
       assisting with social marketing distribution of
       essential health products and services in
       hard to reach areas
                                                                                        No. The
       Increase in the % of currently married
                                                                                      indicator is
       women of reproductive age using modern                                                          42.6% in                 Yes (in
20                                                         46%           48%         not explicit,                   Yes
       birth-spacing methods from 42.6% in 2007                                                         2007                   indicator)
                                                                                    as a target is
       to 50% by 2012
                                                                                    included in it.
       10% annual increase in use of family
                                                                                                       46% total
21     planning commodities by women from the              45%       10% increase                                    Yes          No
                                                                                                      use in 2007
       two lowest income quintiles
                                                                                        No. The
                                                                                    indicators are
       Significantly increase in “misconception                                       not explicit,
                                                                      Significant
       scale” from 2.3 out of 4 to 2.8 out of 4 (18%                                   as targets
22                                                          2.9        Increase                       2.3 in 2007    Yes          No
       increase) on women’s misconceptions on                                              are
                                                                         (2.5)
       hormonal methods                                                              incorporated
                                                                                       into them.
       Coverage of oral contraceptive pills in target
                                                                                                        50% in                  Yes (in
23     area villages increases from 50% coverage           65%           55%                                         Yes
                                                                                                         2008                  indicator)
       to 65% coverage or higher by 2012
       Oral contraceptive pills, all sources, exceed                                   No. The
       5,700,000 (minimum social marketed sales                                      indicator is
       of 2,500,000 in 2009) and show continued                                      not explicit;       None
24                                                       5,915,776    6,270,000                                      Yes          No
       10% annual growth in the total market over                                     does not          listed.
       time: data disaggregated by urban/rural                                      measure only
       point of sale and source of distribution.                                    one aspect at
                                                                                       a time.
24.1   PSI/Cambodia social marketed OK Pill              3,359,652    3,000,000      Target and
       Oral contraceptive pills sold by private                                         other
24.2                                                      80,000       153,300        incorrect
       sector



                                                                                                                                             25
                                                                                                                         Appendix III


       Source: SMBCI Project’s FY 2010 Annual Performance Report                                   Auditor Review
                                                                                                                          Life-of-
                                                        FY 2010     FY 2010     Indicator is                   Annual
 #               Performance Indicators                                                          Baseline?                Project
                                                         Actual      Target     Objective?                     Target?
                                                                                                                          Target?
24.3   Oral contraceptive pills sold by public sector   2,476,124   3,116,700
       Injectable contraceptive methods, all                                       No. The
       sources, exceed 600,000 in 2009 (minimum                                  indicator is
       socially marketed of 280,000 in 2009) and                                 not explicit;
25                                                      1,226,895   660,000
       show 10% annual growth in total market                                     does not
       over time: data disaggregated by urban/rural                             measure only
       point of sale and source of distribution                                 one aspect at       None
                                                                                                                Yes          No
25.1   PSI/Cambodia social marketed OK injection        565,645     308,000        a time.         listed.
                                                                                 Target and
       Injectable contraceptive sold by private                                     other
25.2                                                     4,200       3,000
       sector                                                                     incorrect
       Injectable contraceptive distributed by public                           data included
25.3                                                    657,050     349,000          in it.
       sector
       Number of United Health Network NGOs
       contracted to conduct effective behavior
       change interventions with target populations                                                 Not
26                                                         9           8            Yes                         Yes          No
       and/or with social marketing distribution of                                              applicable.
       essential health products and services in
       hard or reach areas [sic]

       Number of United Health Network NGOs
       and partners provided with ongoing                                                           Not
27                                                         4           8            Yes                         Yes          No
       technical assistance for targeted                                                         applicable.
       communication material development

       Number of diarrhea treatment kits and/or
28     ORS socially marketed sold and distributed       2,842,750   350,000
       in total market
       Diarrhea treatment kits sold through                                                         None
28.1                                                     86,350     100,000         Yes                         Yes          No
       PSI/Cambodia social marketing                                                               listed.
28.2   ORS distributed by private sector                336,000     206,800

28.3   ORS distributed by public sector                 2,420,400    43,200




                                                                                                                                        26
                                                                                                                        Appendix III


     Source: SMBCI Project’s FY 2010 Annual Performance Report                                    Auditor Review
                                                                                                                         Life-of-
                                                       FY 2010      FY 2010      Indicator is                 Annual
#              Performance Indicators                                                           Baseline?                Project
                                                        Actual       Target      Objective?                   Target?
                                                                                                                         Target?
     Number of cases of child diarrhea treated in                                                  Not
29                                                     86,350       100,000          Yes                       Yes          No
     USAID-assisted programs                                                                    applicable.
     Liters of drinking water disinfected by target
     populations using U.S. Government (USG)-                                                      Not
30                                                    28,178,000   10,000,000        Yes                       Yes          No
     supported household water treatment                                                        applicable.
     product
     Number of people trained in child health and
                                                                                                   Not
31   nutrition through USG-supported health              152           10            Yes                       Yes          No
                                                                                                applicable.
     area program
     Number of people trained in monitoring and                                                    Not
32                                                        4            4             Yes                       Yes          No
     evaluation with USG assistance                                                             applicable.
     Percentage of caregivers of children under 5
     in target areas who know that the best                         Baseline                       None
33                                                       N/A                         Yes                        No          No
     treatment for children with mild diarrhea is                  established                    listed.
     ORS plus zinc




                                                                                                                                       27
                                                                                                                              Appendix IV


Performance Indicators With Definition Problems
                Source: SMBCI Project’s FY 2010 Annual Performance Report                                     Auditor Review
                                                              FY 2010
  #                    Performance Indicators                             FY 2010 Target                          Problem
                                                               Actual
       Among high-risk urban men with “high-risk sweetheart                          Significant
  9    relationships,” significant improvement in subjective norms      2.42       improvement
       about proposing condom use to sweetheart                                    from baseline    "Significant improvement" (also
                                                                                                    noted in indicator) has not been
       Among high-risk urban female entertainment workers,                                          defined. Result reported as a
  10   significant increase on beliefs about background and trust       3.16           TBD          numeral against an undefined target
       in partner                                                                                   does not reveal if the activity has
                                                                                                    accomplished its objective.
       Among high-risk urban men with high-risk sweethearts,
                                                                                    Significant
  14   significant increase in the mean score for scaled construct      3.06
                                                                                   improvement
       on beliefs about background and trust in a partner
       Increase from 83% (short-haired) and 94% (long-haired) in                   88% for short-
       2007 to 88% (short-haired MSM ) and 97% (long-haired                       haired MSM and    "Short-haired" and "long-haired"
  15                                                                    N/A
       MSM) of MSM using condom at last sex with nonpaying,                        96% for long-    have not been formally defined.
       paying male partner by 2012                                                  haired MSM
       Significant improvement in key behavioral determinant                                        Neither "significant improvement"
                                                                                     Baseline
  16   which affect MSM to consistently use condoms with their          N/A                         nor "key behavioral determinant"
                                                                                    established
       male partners                                                                                has been defined.
                                                                                                    "Continued growth in total market
       Condoms (all sources) sold and distributed in Cambodia                                       over time" has not been defined. In
       exceed 31.5 million in 2008 (social marketing sales                                          addition, this is a second
  18                                                                 23,190,032     28,000,000
       minimum 26 million) and show continued growth in the                                         measurement under this indicator,
       total market over time                                                                       which makes it difficult to conclude
                                                                                                    if the indicator is met or not.

                                                                                                    "Significant improvement" has not
                                                                                                    been defined. Target says 2.5, but
       Significant increase in “misconception scale” from 2.3 out
                                                                                     Significant    indicator says 2.8. Result reported
  22   of 4 to 2.8 out of 4 (18% increase) on women’s                   2.9
                                                                                   increase (2.5)   as a numeral against an undefined
       misconceptions on hormonal methods
                                                                                                    target does not reveal if the activity
                                                                                                    has accomplished its objective.




                                                                                                                                             28
                                                                                                                             Appendix V


Performance Indicators Stating Multiple Objectives
                Source: SMBCI Project’s FY 2010 Annual Performance Report                                    Auditor Review
        Performance Indicators – Problems With Measuring      FY 2010
  #                                                                       FY 2010 Target                 Multiple Measurements
                      More Than One Activity                   Actual
      Increase from 83% (short-haired) and 94% (long-haired) in                   88% for short-
                                                                                                   Tracking two different activities in
      2007 to 88% (short-haired MSM ) and 97% (long-haired                       haired MSM and
 15                                                                    N/A                         one indicator: short-haired and
      MSM) of MSM using condom at last sex with nonpaying,                        96% for long-
                                                                                                   long-haired MSMs
      paying male partner by 2012                                                  haired MSM
      Condoms (all sources) sold and distributed in Cambodia
      exceed 31.5 million in 2008 (social marketing sales minimum
 18                                                                 23,190,032     28,000,000
      26 million) and show continued growth in the total market
      over time
      Oral contraceptive pills, all sources, exceed 5,700,000
      (minimum social marketing sales of 2,500,000 in 2009) and
                                                                                                   Measuring a number of products
 24   show continued 10% annual growth in the total market over     5,915,776      6,270,000
                                                                                                   sold/distributed in addition to
      time: data disaggregated by urban/rural point of sale and
                                                                                                   continued growth in general.
      source of distribution.
      Injectable contraceptive methods, all sources, exceed
      600,000 in 2009 (minimum social marketing of 280,000 in
 25   2009) and show 10% annual growth in total market over         1,226,895       660,000
      time: data disaggregated by urban/rural point of sale and
      source of distribution




                                                                                                                                          29
                                                                                                                                 Appendix VI


Performance Indicators Not Fairly Representing Project Performance
      Source: SMBCI Project’s FY 2010 Annual Performance Report
                                                                                   Do the Reported Results Fairly Represent Project
                                                FY 2010       FY 2010                              Performance?
  #           Performance Indicators
                                                 Actual        Target
                                                                                 No. Target of "significant improvement," but no formal
      Among high-risk urban men with “high-
                                                                   Significant   definition of what that means. Reporting an average
      risk sweetheart relationships,” significant
  9                                                    2.42      improvement     survey score of 2.42 has little meaning. There was a
      improvement in subjective norms about
                                                                 from baseline   decrease in subjective norms from 2.56 in 2009 to 2.42 in
      proposing condom use to sweetheart
                                                                                 2010.
      Among high-risk urban female
      entertainment workers, significant
 10                                                    3.16          TBD         No. No identified target.
      increase on beliefs about background and
      trust in partner
      Among high-risk urban men with high-risk                                   No. Men believing condoms are necessary to be used
      sweethearts, increase in the belief that                                   with a sweetheart (or entertainment worker) have actually
 13                                                   87.3%          94%
      condoms are appropriate and necessary                                      decreased 6% since the beginning of the project—a fact
      to use with a sweetheart                                                   that is not explicitly included in the performance report.
      Among high-risk urban men with high-risk
                                                                                 No. "Significant improvement" target is not formally
      sweethearts, significant increase in the
                                                                  Significant    defined. Reporting an average survey score of 3.06 has
 14   mean score for scaled construct on               3.06
                                                                 improvement     little meaning. In fact, there has been no statistically
      beliefs about background and trust in a
                                                                                 significant change since the beginning of the project.
      partner
                                                                                 No. Reported results are represented as a percentage
      10% annual increase in use of family                                       increase in users. However, reported results are actually
 21   planning commodities by women from the           45%       10% increase    the total percentage of users. The actual increase in
      two lowest income quintiles                                                users from 2009 to 2010 was about 7%, though there was
                                                                                 also roughly a 7% decrease in use from 2008 to 2009.
                                                                                 No. Water treatment tablets are measured in terms of
                                                                                 liters of disinfected water once sold or distributed to
                                                                                 vendors regardless of when they may be used. One tablet
                                                                                 disinfects 20 liters of water, though targeted populations
      Liters of drinking water disinfected by
                                                                                 are told to use two tablets on the same amount of water if
 30   target populations using USG-supported        28,178,000    10,000,000
                                                                                 it is not clear. The “water disinfected” calculation does not
      household water treatment product
                                                                                 take this into account. The project reported distributing
                                                                                 564,000 water treatment tablets, which could contribute to
                                                                                 only 11,280,000 liters of safe drinking water in the best of
                                                                                 conditions.




                                                                                                                                                 30
                                                                                                                               Appendix VII



Timeliness of Reported Data for Key Impact-Related Performance Indicators
                 Source: SMBCI Project’s FY 2010 Annual Performance Report                                        Auditor Review
                                                                                             FY 2010       Date of
  #                                Performance Indicators                                    Reported       Data           Comments
                                                                                              Results     Collection
  7   98% of direct sex workers report consistent condom use with clients by 2012               N/A          N/A        No results reported.
      Increase consistent condom use in "high-risk sweetheart relationships" among                        Fiscal Year
  8                                                                                            50.5%
      high-risk urban female entertainment workers from X% in 2009 to Y% in 2012                             2009
      Among high-risk urban men with “high-risk sweetheart relationships,” significant                    Fiscal Year   Reported results
  9                                                                                             2.42
      improvement in subjective norms about proposing condom use to sweetheart                               2009       represent data
      Among high-risk urban female entertainment workers, significant increase on                         Fiscal Year   collected in a
 10                                                                                             3.16                    previous fiscal year.
      beliefs about background and trust in partner                                                          2009
      98% of men who report commercial sex report consistent use of condoms with                          Fiscal Year   Reporting them as
 11                                                                                            95.6%                    current results in
      commercial sex workers by 2012                                                                         2009
      Increased percentage of high-risk urban men with high-risk sweethearts who use                      Fiscal Year   the fiscal year 2010
 12                                                                                            69.4%                    annual report is not
      condoms consistently with their "sweethearts" from 59% in 2008 to 62% in 2010                          2009
      Among high-risk urban men with high-risk sweethearts, increase from 93.3% in                                      an effective way to
                                                                                                          Fiscal Year   evaluate current
 13   2008 to 94% in the belief that condoms are appropriate and necessary to use with         87.3%
                                                                                                             2009       project
      a sweetheart by 2010
      Among high-risk urban men with high-risk sweethearts, significant increase in the                                 performance.
                                                                                                          Fiscal Year
 14   mean score for scaled construct on beliefs about background and trust in a                3.06
                                                                                                             2009
      partner
      Increase from 83% (short-haired) and 94% (long-haired) in 2007 to 88% (short-
 15   haired MSM ) and 97% (long-haired MSM) of MSM using condom at last sex with               N/A          N/A
      nonpaying, paying male partner by 2012                                                                            No results reported.
      Significant improvement in key behavioral determinant which affect MSM to
 16                                                                                             N/A          N/A
      consistently use condoms with their male partners
      Increase in the % of currently married women of reproductive age using modern                       Fiscal Year
 20                                                                                             46%
      birth-spacing methods from 42.6% in 2007 to 50% by 2012                                                2010
                                                                                                                        No concerns
      10% annual increase in use of family planning commodities by women from the                         Fiscal Year   noted regarding
 21                                                                                             45%
      two lowest income quintiles                                                                            2010       timeliness of
      Significant increase in “misconception scale” from 2.3 out of 4 to 2.8 out of 4 (18%                Fiscal Year   reported data.
 22                                                                                             2.9
      increase) on women’s misconceptions on hormonal methods                                                2010
      Liters of drinking water disinfected by target populations using USG-supported                      Fiscal Year
 30                                                                                          28,178,000
      household water treatment product                                                                      2010




                                                                                                                                                31
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
